DOE/IG-0504




              SPECIAL              PERFORMANCE MEASURES
                                          AT THE
              REPORT               DEPARTMENT OF ENERGY




                                           MAY 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                           DEPARTMENT OF ENERGY
                           Washington, DC 20585
                                             May 11, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Performance Measures
                         in the Department of Energy"


BACKGROUND

On April 5, 2001, the Chairman, Committee on Government Reform of the U.S. House
of Representatives, requested information on the Department of Energy's
implementation of the Government Performance and Results Act of 1993 (Results
Act). Specifically, the Office of Inspector General (OIG) was asked to identify the ten
most significant performance measures contained in the Department's performance
report and the extent to which the data or information underlying the measures are
valid and accurate. The OIG was asked to complete this evaluation no later than May
11, 2001.

To carry out the requirements of the Results Act, the Department of Energy
(Department) implemented a performance-based management approach. This
approach was designed to improve program effectiveness; to provide management
with a tool to plan, manage, evaluate, and reward organizational, employee, and
contractor performance; and to provide congressional and executive branch
decisionmakers with objective and reliable information about Federal programs.

We examined the Department's Fiscal Year 2000 Performance and Accountability
Report (Accountability Report) and evaluated whether it generally complied with the
requirements of the Results Act. We also assessed the specific measures in the
Accountability Report and selected ten that, in our judgment, most closely paralleled
the major management challenges documented in our November 2000 report,
Management Challenges in the Department of Energy (DOE/IG-0491). This special
report constitutes our response to the congressional inquiry.

CONCLUSIONS AND OBSERVATIONS

The Department has made progress in implementing the Results Act. For the last 3
years, it has issued a comprehensive Performance and Accountability Report with
established goals designed to define the level of performance to be achieved by each
program. In addition, it has worked to incorporate performance goals and objectives
into its management contracts. However, we identified problems with the usefulness
and
                                               2



completeness of the performance measures and the validity and accuracy of some of the
results reported. Specifically:

•     Several measures were not objective or quantifiable,
•     Critical measures relating to some of the Department's major challenge areas were not
      present, and
•     Performance results reported for the selected measures were not always accurate and
      valid.

We recognize the magnitude of the challenge the Department faces in implementing a
comprehensive performance management system. The operating environment, in which
many Departmental activities are performed at government-owned, contractor-operated
facilities, represents an inherent challenge in designing and implementing useful and
meaningful performance measures. Long-term contracts must be renegotiated and
agreements on what should be accomplished must be reached among all parties. Further,
measuring performance, particularly in science-related projects, can be complex because a
wide range of factors determine how a particular project will result in a commercial
application or have other benefits.

To aid in the implementation of the performance management system, we suggest that the
Department emphasize the development of measures that are specific, quantifiable, and
relevant; address each of the agency's management challenges; and, ensure that results
reported represent accurate information and true accomplishments.

During this review we coordinated closely with officials from the Office of the Chief
Financial Officer. These officials provided detailed information on how they are improving
the performance measurement process. We look forward, in this regard, to working with
the Department's senior staff in a continuing effort to improve Department programs and
operations, particularly as they relate to performance measurement issues.



Attachment

cc:    Office of the Deputy Secretary
       Administrator, National Nuclear Security Administration
       Chief Financial Officer
Performance Measures at the Department of Energy

TABLE OF
CONTENTS



                  Overview

                  Introduction and Objective ..........................................................1

                  Conclusions and Observations.................................................. 2

                  Suggested Actions …………..................................................... 6


                  Detailed Analysis of Reported Results

                  Details of Findings ......................................................................7


                  Appendices

                  1. Examples of Performance Measures
                     that are not Objective or Measurable ............................. ….14

                  2. Selected Related
                     Office of Inspector General Reports ....................................15
OVERVIEW


INTRODUCTION AND   The Government Performance and Results Act of 1993 (Results Act)
OBJECTIVE          was enacted to improve program effectiveness and to provide
                   congressional and executive branch decisionmakers with objective and
                   reliable information about Federal programs. To accomplish this goal
                   the Department of Energy (Department) has implemented a
                   performance-based management approach to plan, manage, evaluate,
                   and reward organizational, employee, and contractor performance. This
                   approach includes identifying specific Departmentwide goals and
                   defining those goals through written strategies, objectives, and
                   measures. Performance is assessed through comparisons between set
                   expectations and actual accomplishments.

                   On April 5, 2001, the Chairman, Committee on Government Reform of
                   the U.S. House of Representatives, requested information on the
                   Department of Energy's implementation of the Results Act.
                   Specifically, the Office of Inspector General (OIG) was asked to
                   identify the ten most significant performance measures contained in the
                   Department's performance report and the extent to which the data or
                   information underlying the measures are valid and accurate. As part of
                   the analysis, the OIG was also asked to determine whether the measures
                   provided useful indicators of performance. The OIG was requested to
                   complete this evaluation no later than May 11, 2001.

                   To conduct this review, we examined the Department's Fiscal Year
                   2000 Performance and Accountability Report (Accountability Report)
                   and evaluated whether it generally complied with the requirements of
                   the Results Act. We assessed the specific measures in the
                   Accountability Report and selected ten that, in our judgment, most
                   closely paralleled the major management challenges documented in our
                   November 2000 report, Management Challenges in the Department of
                   Energy (DOE/IG-0491). Finally, we contacted personnel in the Office
                   of the Chief Financial Officer (CFO) and the program officials
                   responsible for each of the measures to obtain information relating to
                   the accuracy and validity of the reported results.

                   Given the timeframe available, we did not 1) evaluate whether the
                   accomplishment of the specific measures would further the
                   Department's efforts in achieving its overall mission or 2) assess
                   whether the targets set by the measures presented a reasonable "stretch"
                   for the program. Cognizant program offices and managers made those
                   determinations during the performance plan process.




Page 1                                                        Introduction and Objective
CONCLUSIONS AND   The Department has made progress in implementing the Results Act. It
OBSERVATIONS      has issued a comprehensive performance and accountability report for 3
                  consecutive years with established goals designed to define the level of
                  performance to be achieved by each program. In addition, the
                  Department has worked to incorporate performance goals and
                  objectives into its management contracts. However, we identified
                  problems with the usefulness and completeness of the performance
                  measures and the validity and accuracy of some of the results reported.
                  Specifically:

                        •   Several measures were not objective or quantifiable,
                        •   Critical measures relating to some of the Department's major
                            challenge areas were not present, and
                        •   Performance results reported for the selected measures were not
                            always accurate and valid.

Usefulness of     As previously identified in our audits of the Department's Financial
Measures          Statements, many of the measures contained in the Department's
                  Accountability Report were not as useful as they might have been in
                  indicating performance. Specifically, some performance measures were
                  not output or outcome oriented and did not contain tangible, measurable
                  goals stated in objective or quantifiable terms. For example, in the area
                  of Energy Resources, measures were in place that required program
                  offices to advance or support outside entities. Similarly, some of the
                  Department's National Security measures called for improving,
                  expanding, or continuing various programs or projects. While these
                  may represent admirable goals, none of these terms indicated that the
                  Department had established an objective or quantifiable method for
                  determining if the desired outcome was achieved.1

                  The Department has indicated that changes to its performance
                  measurement reporting process were currently underway. These were
                  being implemented to better meet Office of Management and Budget
                  requirements, including those requiring useful, output and outcome
                  oriented, meaningful and relevant, and objective and quantifiable
                  measures. To illustrate, the Fiscal Year 2002 Performance Plan, issued
                  by the Department on May 1, 2001, stated that the Department would
                  be, "strictly adhering to the criteria … established in previous years for




                  1
                      Detailed examples of performance measures in this category can be found in
                      Appendix 1.


Page 2                                                          Conclusions and Observations
                   developing the annual performance measures. [The Department intends
                   that] these performance measures be Presidential, specific, quantified,
                   meaningful, challenging, concise, written for taxpayers, comprehensive,
                   and auditable."

 Completeness of   The Accountability Report also did not contain all the performance
 Measures          measures that we deemed critical to improving the Department's
                   operations. Specifically, human capital concerns recognized by both
                   the Department and the OIG were not addressed at an agency-wide
                   level. Further, issues relating to the Department's weapons
                   infrastructure and asset inventories were not fully addressed in its
                   performance measurement reporting system.

                                                Human Capital

                   The Department did not have any agency-wide performance measures
                   in the Accountability Report that would address the considerable
                   challenge associated with the loss of a skilled workforce. Since 1995,
                   the Department has experienced a substantial downsizing of its Federal
                   staff. During this period, the staff eligible for retirement has increased
                   from 6 to 11 percent and will increase to 34 percent in the next 5 years.
                   The Department's major contractors have experienced similar losses.
                   The decline in staffing has left the Department with the challenge of
                   reinvesting in its human capital to ensure that there are enough of the
                   right-skilled people necessary to successfully meet its missions.

                   In FY 2000 and previous years, several individual Departmental
                   elements had established performance measures designed to address
                   mission critical staffing needs. However, developing a comprehensive
                   and integrated Departmentwide human capital investment strategy with
                   appropriate performance measures is, in our judgment, key to resolving
                   this complex issue. Specific areas relating to this challenge include
                   processes for identifying skill needs, succession planning, complex-
                   wide recruitment and hiring, career development, and compensation
                   plans.

                   The Office of Management and Administration designed several
                   agency-wide human capital performance measures which are contained
                   in the Department's FY 2002 Performance Plan. These measures
                   address concerns relating to forecasting mission needs and skill gaps,
                   developing succession planning strategies, and streamlining recruitment
                   and hiring activities.




Page 3                                                   Conclusions and Observations
                                 Weapons Infrastructure

         Two performance measures in the Accountability Report relate to the
         Department's weapons infrastructure needs. However, given the nature
         of the problems reported by the Department, the OIG, and the
         Congress, these measures were not adequate to address this important
         national security issue. One of the measures was limited to the current
         requirements of the Stockpile Stewardship Plan and did not address
         future needs. The second measure, Meet the established schedules for
         downsizing and modernizing our production facilities, referred only to
         the status of four Departmental projects valued at approximately $300
         million rather than the more comprehensive task of downsizing and
         modernizing all production facilities across the weapons complex.

         The National Nuclear Security Administration (NNSA) and the
         Department of Defense have estimated that between $5 billion and $8
         billion more than current budget amounts will be needed to be invested
         in the next 10 years to offset the effects of delayed or neglected
         infrastructure activities. The poor condition of the Department's
         facilities is impacting the weapons production mission and could result
         in increased safety and health risks.

         In September 2000, the OIG issued its report on Management of the
         Nuclear Weapons Production Infrastructure (DOE/OIG-0484). In this
         report, we recommended that the NNSA establish an overall science
         and production focal point, update budget-planning assumptions,
         develop a condition assessment survey methodology and ensure it is
         conducted at all production plants, prepare a ten-year site plan for each
         plant and laboratory, and establish consistent performance measures for
         infrastructure maintenance.

         The Administrator of the newly-formed NNSA has stated that upgrades
         to the production facilities are a high priority, and that he has
         established an office to manage the facilities of the nuclear weapons
         complex. In our view, based on the objectives in the Results Act, and
         concurrent with the NNSA effort, a comprehensive performance
         measurement plan needs to be established to monitor progress in this
         area.

                                    Asset Inventories

         The Department also has extensive inventories of nuclear and
         nonnuclear materials, land, and facilities that were no longer necessary
         due to the end of the cold war and Departmental mission changes.


Page 4                                         Conclusions and Observations
                      Although the Department has initiated actions to address problems
                      associated with these inventories, the OIG has issued several reports
                      indicating the need for improvements in storing, securing, and handling
                      these materials. The Department has indicated that they have several
                      efforts in process to improve the management of asset inventories.

                      While the Department has established several site specific measures, as
                      well as other performance measures relating to control and disposal of
                      nuclear assets overseas (primarily in Russia), the Accountability Report
                      did not include any overall measures that focused on the disposition of
                      excess inventories, land, and facilities that reside at Departmental
                      facilities in the United States. Identifying opportunities to optimize
                      facilities and providing adequate incentives for reducing the volume of
                      unneeded material are critical steps towards resolving this issue.

                      It should be noted that the Department's FY 2002 Performance Plan
                      contains some measures for the disposition and storage of surplus fissile
                      materials, but these measures do not address nonnuclear issues relating
                      to asset inventories.


Accuracy and          Some of the results reported in the Accountability Report were not
Validity of Results   entirely valid or accurate. For two of the OIG selected measures, the
                      reported results and the documentation provided did not adequately
                      address whether the goal was actually accomplished. In addition, for
                      one of the measures, the detailed reported results did not support the
                      program's overall assessment that it had met its goal.

                      The identified problems related to the Energy Supply/Demand
                      Technology and the Infrastructure challenge areas. We selected one
                      measure that was designed to speed the demonstration and transfer of
                      energy technologies to the private sector. While the Department
                      reported that it had met the goal associated with this measure, the
                      results reported and the documentation provided did not support this
                      assessment. Successful completion of the measure required the
                      demonstration and transfer of seven technologies, but only three were
                      actually completed by the end of the fiscal year.

                      We also examined measures designed to maintain and/or improve the
                      operations of the Department's production facilities. Officials
                      responsible for one of the measures could not provide documentation to
                      fully support the assessment that all facilities required for successful




Page 5                                                     Conclusions and Observations
                    achievement of the Stockpile Stewardship Plan were operational. A
                    more detailed discussion of each of the OIG selected measures and their
                    related results can be found on page 7 of this report.

SUGGESTED ACTIONS   The OIG has reported concerns with the Department's performance
                    measures in its financial statement audits. In addition, in 1999, we
                    issued a report on The U.S. Department of Energy's Implementation of
                    the Government Performance and Results Act (DOE/IG-0439). During
                    that audit, we found that the Department's performance measures did
                    not always reflect a sufficient relationship to Departmental mission,
                    goals, or objectives and were not always objective and measurable.
                    Also, performance information was not fully supportable, accurate,
                    complete, or timely. Appendix 2 contains a list of relevant OIG reports
                    issued in the last 2 years.

                    Based on our observations during this review and prior reviews, we
                    concluded that the Department should take additional steps to improve
                    its performance management reporting process. In particular, we
                    suggest that the Department:

                       •   Include only performance measures that are specific,
                           quantifiable, meaningful, and relevant in the Performance Plan,
                           Performance Agreement, and the Accountability Report.

                       •   Develop measures that ensure that each of the Department's
                           management challenges is addressed.

                       •   Ensure that results reported represent accurate information and
                           true accomplishments.

                    Officials in the CFO were receptive to our suggestions and agreed that
                    further refinement of performance measures was needed. However,
                    they believed that the measures established in the Accountability Report
                    provided useful indicators of programmatic performance.




Page 6                                                                Suggested Actions
DETAILED ANALYSIS OF REPORTED RESULTS

                          Details of the performance results for each of the ten measures selected,
                          along with the reasons for selection, are outlined below by OIG
                          challenge area.


National Nuclear          The National Nuclear Security Administration (NNSA) was established
Security Administration   in March 2000 to provide clear and direct lines of accountability and
                          responsibility for the management and operation of the nation's nuclear
                          weapons, naval reactors, and nuclear nonproliferation activities. We
                          selected one measure in the NNSA area, which is shown in the box
                          below.


                                         NNSA
                                  Performance Measure                       Reported Results
                              •   Meet all annual weapons          Below Expectations -- No modifications
                                  alteration and modification      were required this fiscal year. Eleven
                                  schedules developed jointly by   alterations are underway. Six of the
                                  DOE and DOD. (NS 1-1)2           eleven are behind schedule.




                          The reported results were supported by documentation from the Office
                          of Defense Programs and appeared to be an accurate reflection of the
                          status of the measure. In addition, the results reported seem to confirm
                          the assessment of "below expectations."


Contract Administration   Of the Department's total budget of almost $18 billion, about $13
                          billion is spent by its contractors. The Department has been in the
                          process of reforming its contracting practices, including attempts to
                          aggressively re-compete contracts, tie performance metrics to
                          contractor fees, and shift more risk to its contractors, since about 1994.
                          We selected one measure, relating to performance-based contracting, in
                          the area of Contract Administration.




                          2
                           The Accountability Report assigns a number to each Departmental objective. These
                          numbers indicate the business line (National Nuclear Security – NS, Environmental
                          Quality – EQ, Energy Resources – ER, Science – SC, and Corporate Management –
                          CM), the goal within that business line, and the objective.

Page 7                                                                              Details of Finding
                           Contract Administration
                            Performance Measure                          Reported Results
                     • Convert all management and operating       Met Goal -- All DOE Management
                       contracts awarded in FY 2000 to            and Operating Contracts awarded
                       Performance Based Management contracts     through September 2000 have been
                       using government-wide standards [Federal   converted to Performance Based
                       Acquisition Regulations (48 CFR Part 39)   Management contracts using
                       and Office of Federal Procurement Policy   government wide standards.
                       letter 91-2]. (CM 4-1)



                    The reported results were supported by documentation provided by the
                    Office of Procurement and Assistance Management and appeared to be
                    an accurate reflection of the status of the measure. In addition, the
                    characterization of "met goal" seemed appropriate.


Energy Supply/      Recent events, including the dramatic spike in oil and gasoline prices,
Demand Technology   have led to a renewed national focus on the significance of energy
                    imports and the technology that can reduce energy dependency.
                    Currently, the United States relies on petroleum for about 40 percent
                    of its energy supply, and 51 percent of this petroleum is imported.
                    Increasing energy demands are likely to exacerbate this situation.
                    One performance measure was selected in the area of Energy Supply/
                    Demand Technology.

                          Energy Technology
                         Performance Measure                          Reported Results
                    • Complete demonstration and transfer     Met Goal -- With successful technology
                      of 7 advanced secondary and tertiary    transfer, the technologies tested in the
                      technologies, adding 92 million         7 projects could result in the eventual
                      barrels of reserves, increasing the     production of up to 184 million barrels
                      number of economic wells and            of incremental oil, from the geologic
                      reducing abandonment rates.             basins that the projects are located.
                      (ER 1-1)




                    For this particular measure, while the Department stated that it had met
                    its goal, the reported results did not clearly support this conclusion.
                    According to the documentation provided by the Office of Fossil
                    Energy (FE), seven specified projects were tested and deemed
                    successful. But, we noted that four of the projects had not been
                    completed by year-end, and we were unable to determine, from the


Page 8                                                                        Details of Finding
                documentation provided, whether technology transfer had taken place.
                In addition, the results only stated that eventual production could result in
                adding to the reserves, not that the performance goal had actually been
                achieved. Finally, the results reported in the Accountability Report did
                not discuss whether the number of economic wells had increased or
                whether the abandonment rates had decreased. Therefore, in our opinion,
                neither the documentation provided nor the reported results supported the
                assessment of "met goal."

                In responding to this report, FE stated that they believed the "met goal"
                assessment was justified. They stated that the seven technologies were
                successfully demonstrated and that technology transfer takes place over
                the life of the project, not just at the project completion. In addition, they
                explained that, with regard to the last part of the measure, the increase in
                the number of economic wells and the decrease in abandonment rates,
                would take place "automatically" if the technologies are successful.


Environmental   The Department's effort to address the environmental consequences of its
Remediation     nuclear weapons mission has been recognized as the largest remediation
                program ever undertaken. The Department reports that it is responsible
                for cleaning up 113 geographic sites located in 30 states and one
                territory. Cleaning up the entire nuclear weapons legacy will take several
                decades and, according to the Department's most recent estimate, cost
                about $230 billion. We selected two of the many environmental clean-up
                related measures in the Department's Accountability Report.



                   Environmental Remediation
                     Performance Measures                             Reported Results

                • Stabilize 400 containers of plutonium      Nearly Met Goal -- 574 containers of
                  metals/oxides, 41,000-kg bulk of           plutonium metal oxides, 29,460-kg of
                  plutonium residues, and 130 handling       bulk plutonium residues, and 224
                  units of other nuclear material in other   handling units of other nuclear material
                  forms. (EQ 1-1)                            have been stabilized.

                • Complete 82 facility                       Nearly Met Goal -- Seventy-seven
                  decommissionings. This will bring the      facility decommissionings were
                  number of completed facility               completed.
                  decommissionings to 640 out of a total
                  inventory of approximately 3,300
                  facilities. (EQ 2-1)




Page 9                                                                      Details of Finding
                         The results reported for both of the measures appeared to be accurate
                         and valid. The Office of Environmental Remediation and Waste
                         Management (EM) provided documentation supporting the results and
                         the assessments of "nearly met" appeared appropriate.


Information Technology   In 1996, the Clinger-Cohen Act required the Department to appoint a
                         Chief Information Officer (CIO) to develop and implement an effective
                         agency-wide information technology investment strategy and an
                         integrated information technology architecture. The use of capital
                         planning and investment controls to better manage information
                         technology was identified by the Office of Management and Budget as
                         a government-wide priority. Since the Department's annual information
                         technology expenditures exceeded $1.6 billion, we selected one of the
                         two CIO performance measures to review.

                          Information Technology
                           Performance Measure                       Reported Results
                         • Complete all FY 2000          Nearly Met Goal – CMIP is comprised of nine
                           milestones in the Corporate   projects; each project has separate performance
                           Management Information        measures. Seven projects met nearly all project
                           Program (CMIP) plan.          performance measures. The other two projects
                           (CM 5-1)                      also met nearly all performance measures and
                                                         new completion dates were established for
                                                         those they did not meet.



                         The performance measure selected contained the target of meeting all
                         milestones in the Corporate Management Information Program (CMIP)
                         plan. This plan was comprised of nine individual projects with their
                         own milestones. The documentation supplied by the CIO supported the
                         characterization that each of the individual projects "nearly met" their
                         goals and information given by officials in the CIO further tied the
                         plan's milestones to the individual project goals.


Infrastructure           The Department is responsible for providing the Nation with nuclear
                         weapons and ensuring these weapons remain safe, reliable, and
                         available for the defense of the United States, should the need arise.
                         Current and future goals of the Department and the NNSA are at risk
                         because the infrastructure has not been adequately maintained.




Page 10                                                                          Details of Finding
          Infrastructure concerns do not focus only on physical facilities.
          Advances in information technology and an increased reliance on
          electronic commerce have been initiating major changes. The
          President's Commission on Critical Infrastructure Protection concluded
          that our critical national infrastructures are increasingly vulnerable to
          both physical and cyber (electronic) disruptions, and that such
          disruptions could result in major losses that could affect national
          security, the economy, and the public welfare. We selected two
          measures related to the Department's infrastructure, one physical and
          one electronic.


                Infrastructure
            Performance Measures                         Reported Results
          • Ensure that all facilities       Below Expectations -- The LANL nuclear
            required for successful          production facilities, TA-55 and the
            achievement of the Stockpile     Chemistry and Metallurgy Research building,
            Stewardship Program remain       remain operational. However, operations
            operational. (NS 3-1)            have been severely restricted due to the
                                             March 2000 Pu-238 intake accident and the
                                             resulting compensatory and corrective
                                             actions. In addition, the Cerro Grande Fire in
                                             May 2000 caused significant disruption to all
                                             Laboratory activities. At the end of the fiscal
                                             year, operations in TA-55 were just
                                             beginning to return to normal with the
                                             resumption of pit manufacturing
                                             development activities.

          • Initiate the correction of DOE   Met Goal -- An Interagency Agreement with
            infrastructure vulnerabilities   the Department of Commerce to support the
            identified by the President's    implementation of PDD-63 on Critical
            Commission on Critical           Infrastructure Protection within the
            Infrastructure Protection.       Department has been signed.
            (NS 3-3)




          The results reported related to the first measure, Ensure that all
          facilities required for successful achievement of the Stockpile
          Stewardship Program remain operational, only focused on problems at
          Los Alamos National Laboratory (LANL). Information on the
          remaining "required" facilities was not presented. The Office of
          Defense Programs (DP) stated that they report only on an exception
          basis, and its other required facilities were fully operational. When
          documentation was requested supporting the conclusion that the other

Page 11                                                            Details of Finding
                    required facilities were operational, only reports on the environment,
                    safety, and health activities (ES&H) were provided. While DP officials
                    receive daily e-mails detailing the status of each facility, they do not
                    collect any other type of rollup information that would address the
                    measure specifically. DP officials stated that, starting in the fourth
                    quarter of FY 2000, overall information beyond the ES&H reporting
                    requirements was being collected. This included information on
                    facility availability, facility production projects, security, and quality
                    oversight.

                    With regard to the characterization of "below expectations," DP may, in
                    our view, be too critical of their performance. If all other facilities
                    were fully operational except two facilities in LANL, it is possible that
                    the assessment of "below expectations" is too low. However, without
                    appropriate documentation supporting the otherwise fully operational
                    assessment and, given the importance of the two facilities at LANL, the
                    "below expectations" grade may be appropriate.

                    The reported results relating to the second measure, Presidential
                    Decision Directive 63, appeared to be accurate and valid. The CIO
                    provided supporting documentation and the assessment of "met goal"
                    was confirmed by the results. It should be noted, however, that
                    "initiating the correction of vulnerabilities" did not establish a very
                    measurable or quantifiable commitment.


Safety and Health   Ensuring the safety and health of its workforce and the public is one of
                    the Department's most difficult, long-term challenges. Safety and
                    health issues encompass all activities relating to the identification,
                    testing, handling, labeling, cleanup, storage, and/or disposal of
                    radioactive and hazardous waste. We selected one measure, shown
                    below, within the safety and health area.

                        Safety and Health
                      Performance Measure                         Reported Results
                    • Implement Integrated Safety       Nearly Met Goal -- Nearly every site has
                      Management at all DOE Sites.      successfully completed their ISM
                      (CM 1-1)                          implementation.



                    The results reported for this measure appeared to be accurate and, while
                    a more specific definition of "nearly every site" would be useful, the
                    results also appeared to be valid. The Office of Environment, Safety

Page 12                                                                Details of Finding
           and Health provided supporting documentation and the assessment of
           "nearly met" seemed appropriate.


Security   One of the objectives of the Department's National Nuclear Security
           business line is ensuring that the Department's nuclear weapons,
           materials, facilities, and information assets are secure through effective
           safeguards and security policy, implementation, and oversight. The
           Department spends close to $1 billion a year for physical and personnel
           security. We selected one measure from the Security area. This
           measure, on the security planning process is listed below.

                    Security
              Performance Measure                       Reported Results
            • Develop a streamlined Site      Met Goal -- A new process was developed
              Safeguards and Security plan    and a memo formally establishing the new
              process. (NS 3-3)               SSSP process was issued in October 1999.
                                              A guide on the format and content of the
                                              SSSPs was prepared and issued in
                                              March 2000.


           The reported results appeared to be accurate and valid. The Office of
           Security and Emergency Operations provided documentation
           supporting the establishment of a new Site Safeguards and Security
           plan process and the assessment of "met goal" seemed appropriate.




Page 13                                                            Details of Finding
APPENDIX 1


                         EXAMPLES OF PERFORMANCE MEASURES
                       THAT ARE NOT OBJECTIVE OR QUANTIFIABLE
                                    (by Business Line)



ENERGY RESOURCES
  •   Continue Nuclear Energy Research Initiative research to improve the understanding of new reactor
      and fuel cycle concepts and nuclear waste management technologies, and begin to develop a
      preliminary feasibility assessment of the concepts and technologies. (ER 2-8)
  •   Advance the state of scientific knowledge and technology to enable incorporation of improved
      proliferation resistance, safety, and economics in the potential future design and development of
      advanced reactor and nuclear fuel systems.
  •   Continue support for Industrial Assessment Centers operating at 30 participating universities that
      will conduct approximately 750 combined energy, waste, and productivity assessments.

NATIONAL NUCLEAR SECURITY
  •   Support U.S. Government lead negotiations on the Fissile Materials Cut-off Treaty and the
      Biological Weapons Convention.
  •   Continue to install MPC&A upgrades in Russia for defense-related sites, civilian sites, Russian
      Navy projects, and the transportation sector.
  •   Further the Nuclear Cities Initiative by promoting cooperation with the closed cities in the Russian
      nuclear weapons complex to improve the prospects for defense conversion and employment of
      former weapons scientists.

ENVIRONMENTAL QUALITY
  •   Continue coordination with the National Academy of Sciences/National Research Council on the
      release of their analyses on long-term stewardship.

SCIENCE
  •   Further the progress on achieving luminosity and operational efficiency for the Tevatron at
      Fermilab in its new mode of operation with the recently completed Main Injector.
  •   Continue collaborative efforts with NASA on space science and exploration.




Page 14                                                                        Performance Measures
                                                                               that are not Objective or
                                                                               Quantifiable
APPENDIX 2

             SELECTED RELATED OFFICE OF INSPECTOR GENERAL REPORTS


All Department of Energy OIG audits include steps to review the performance measures related to the
audited area. The following is a list of selected reports that contain findings or recommendations related to
performance measurement in the Department.

•   The U.S. Department of Energy's Implementation of the Government Performance and Results Act
    (February 1999, DOE/IG-0439). The Department's implementation of the Results Act was incomplete.
    Performance measures were not always objective and measurable and did not sufficiently relate to
    Departmental mission, goals, or objectives. Also, performance information was not supportable,
    accurate, complete, or timely.

•   The U.S. Department of Energy's Consolidated Financial Statements (February 2001,
    DOE/IG-FS-01-01). Some of the measures did not include cost-effective attributes, the quality
    of others was questionable, and some of the results were not reported accurately.

•   Management Challenges at the Department of Energy (November 2000, DOE/IG-0491). The
    Department should develop and implement performance goals and measures that directly address the
    identified challenges and assess actual performance against those goals and measures making sure the
    results were independently validated.

•   Bechtel Jacobs Company LLC's Management and Integration Contract at Oak Ridge (March 2001,
    DOE/IG-0498). The performance measures established by the Oak Ridge Operations Office would not
    ensure that requirements of the contract would be met. Also, there were no contractual requirements or
    performance incentives in place for the contractor to maximize cost effectiveness to use competitive,
    fixed-price subcontracts or reduce staff.

•   The U.S. Department of Energy's Corporate Human Resource Information System (February 2001,
    DOE/IG-0494). Certain Departmental goals and objectives to reengineer human resource processes and
    eliminate redundant systems were not met through implementation of the system.

•   Management of the Nuclear Weapons Production Infrastructure (September 2000, DOE/IG-0484).
    Current and future goals of the Stockpile Stewardship Plan are at risk because the nuclear weapons
    production infrastructure has not been adequately maintained and Plan requirements exceed plant
    capabilities.

•   Implementation of Presidential Decision Directive 63, Critical Infrastructure Protection
    (September 2000, DOE/IG-0483). Due to the lack of specific plans, performance measures and goals,
    the Department had not implemented its critical infrastructure protection plan. Increased risk of
    malicious damage to cyber-based infrastructure could adversely impact the Department's ability to
    protect critical assets and deliver essential services.



Page 15                                                                                       Prior Reports
•   Performance Incentives at the Idaho National Engineering and Environmental Laboratory
    (April 2000, WR-B-00-05). The goal of performance-based incentives was not being met.
    The incentives used were not successfully improving contractor performance or reducing costs
    because they were process rather than outcome oriented.

•   Facilities Information Management System (April 2000, DOE/IG-0468). The Facility Information
    Management System was inaccurate and incomplete and the ability to make informed decisions about
    real property was questionable. A performance plan should be prepared to ensure that efforts to
    improve information management systems are consistent with the Department's overall strategic goals
    and objectives.




Page 16                                                                                Prior Reports
                                                                               IG Report No. :DOE/IG-0504

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
